                                                                   Issue Date
                                                                            December 19, 2007
                                                                   Audit Report Number:
                                                                            2008-AO-1001




TO:        Nelson Bregon, General Deputy Assistant Secretary, D

FROM:      Rose Capalungan, Regional Inspector General for Audit, GAH

SUBJECT: State of Louisiana, Baton Rouge, Louisiana, Road Home Program,
         ICF Did Not Always Provide Contract Deliverables as Required

                                     HIGHLIGHTS

 What We Audited and Why

             We audited the State of Louisiana’s (State) Road Home program (Road Home)
             housing manager’s performance under a contract worth more than $750 million.
             The State is a Community Development Block Grant (CDBG) disaster recovery
             grantee under the Department of Defense Appropriations Act of 2006.

             We initiated the audit in conjunction with the Office of Inspector General (OIG)
             Gulf Coast Region’s audit plan and examination of relief efforts provided by the
             federal government in the aftermath of Hurricanes Katrina and Rita. Our
             objective was to determine whether the Road Home housing manager, ICF
             Emergency Management Services (ICF), provided contract deliverables in
             accordance with the terms and conditions of its contract with the State.

 What We Found

             The State’s Road Home housing manager, ICF, did not always provide contract
             deliverables in accordance with the terms and conditions of its contract with the
             State, thereby causing the State to reject the deliverables. Specifically, the State
             rejected 6 of 80 deliverables provided by ICF. Of the six rejected deliverables,
             the homeowner management information system deliverable was most critical,
             since it was the core processing mechanism needed for the progress of the
             homeowner assistance program. This condition occurred because of many State-


                                               1
           imposed program changes, ICF’s incapacity to adopt those changes by delivery
           dates defined by contract, and the State’s lack of an adequate monitoring system
           to ensure that ICF provided contract deliverables by their due dates. Collectively,
           the management information system, in conjunction with the State’s perpetual
           modification requirements to the system, and inadequate monitoring of system
           modification requirements during phase 1, contributed to delaying the distribution
           of grants to eligible homeowners.

What We Recommend

           We recommend that the U.S. Department of Housing and Urban Development’s
           (HUD) General Deputy Assistant Secretary for Community Planning and
           Development require the State to set realistic goals for ICF, taking timely
           appropriate action against ICF when performance problems arise as stipulated by
           the contract; and verify whether the State adequately implemented its new
           monitoring policies and procedures.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response

           We provided a draft report to the State’s and HUD’s staff on November 6, 2007.
           We conducted an exit conference with the State and HUD on November 14, 2007.

           We asked for and State’s Office of Community Development executive director
           provided written comments on the draft report on November 21, 2007. The State
           disagrees with the report’s conclusions. The complete text of the State’s written
           response, along with our evaluation of that response, can be found in appendix A
           of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objective                                                             4

Results of Audit

   Finding 1: ICF Did Not Always Provide Contract Deliverables in Accordance with    5
              Its Contract with the State

Scope and Methodology                                                               12

Internal Controls                                                                   13

Appendix
   A. Auditee Comments and OIG’s Evaluation                                         15




                                            3
                       BACKGROUND AND OBJECTIVE

On December 23, 2005, Congress approved a $29 billion package of Gulf Coast hurricane relief.
The package included $11.5 billion for the supplemental Community Development Block Grant
(CDBG) program and a provision that no single state could receive more than 54 percent of each
allocation within the package. The U.S. Department of Housing and Urban Development (HUD)
awarded the full 54 percent of its $11.5 billion hurricane relief allocation to the State of
Louisiana (State), resulting in a $6.2 billion award. HUD authorized the State to begin use of
these funds on May 9, 2006. On June 15, 2006, Congress approved an additional $4.2 billion for
the State for a combined total of $10.4 billion.

The State’s Division of Administration is the central management and administrative support
agency for the State. The Disaster Recovery Unit within the Division of Administration’s Office
of Community Development (OCD) is responsible for administering the use of the supplemental
CDBG funds. The Louisiana Recovery Authority is the planning and coordinating body for the
recovery and rebuilding of the State of Louisiana. The Disaster Recovery Unit, in conjunction
with the Louisiana Recovery Authority, develops action plans outlining the programs and
methods the State uses to distribute the supplemental CDBG funds. HUD must approve the
action plans before the supplemental CDBG funds are available to be disbursed.

With approval from the Louisiana legislature, the governor, the Louisiana Recovery Authority,
and the Disaster Recovery Unit created the Louisiana Road Home program (Road Home), which
encompasses a number of programs designed to assist property owners in rebuilding as part of
recovery efforts. The State has allocated more than $6.3 billion in CDBG disaster recovery
funds to the homeowner assistance program, one of the Road Home programs, which provides a
compensation grant capped at $150,000 per eligible homeowner.

The State executed a contract with ICF Emergency Management Services (ICF), effective June
12, 2006, to serve as the Road Home housing manager, acting as the State’s agent. Being the
Road Home housing manager, ICF was required by the State to provide certain deliverables,
including the homeowner management information system deliverable, as part of its
implementation of the Road Home program.

Our objective was to determine whether the Road Home housing manager, ICF, provided
contract deliverables in accordance with the terms and conditions of its contract with the State.




                                                 4
                            RESULTS OF AUDIT

   Finding 1: ICF Did Not Always Provide Contract Deliverables in
              Accordance with Its Contract with the State
The State’s Road Home housing manager, ICF, did not always provide contract deliverables in
accordance with the terms and conditions of its contract with the State, thereby causing the
State to reject the deliverables. Specifically, the State rejected 6 of 80 deliverables provided by
ICF. Of the six rejected deliverables, the homeowner management information system
deliverable was most critical, since it was the core processing mechanism needed for the
progress of the homeowner assistance program. This condition occurred because of many
State-imposed program changes, ICF’s incapacity to adopt those changes by delivery dates
defined by contract, and the State’s lack of an adequate monitoring system to ensure that ICF
provided deliverables by their due dates. Collectively, the management information system, in
conjunction with the State’s perpetual modification requirements to the system and inadequate
monitoring of system modification requirements during phase 1, contributed to delaying the
distribution of grants to eligible homeowners.



State and Contract
Requirements

             According to its HUD-approved action plan, the State was required to implement
             the Road Home program to assist property owners in rebuilding, as part of
             recovery efforts in the aftermath of Hurricanes Katrina and Rita.

             To assist in the Road Home program’s implementation, the State executed a
             contract with ICF to serve as the Road Home program’s housing manager. Under
             the terms and conditions of the contract, effective June 12, 2006, the State
             required ICF to provide a number of deliverables on scheduled target dates,
             including the homeowner management information system.


Contract Deliverables

             ICF provided deliverables by their target dates, but the deliverables were not
             always completed in accordance with the terms and conditions of the contract. In
             turn, the State would reject the deliverables. The State required ICF to provide 80
             deliverables between June 12, 2006, and January 31, 2007. The State had the
             option to codify each deliverable according to its status category (defined in the
             table below)




                                               5
                                           Description of deliverable review results


          Status category                               Definition
         Approved            No further action necessary by either party (Office of
                             Community Development /ICF)
         Rejected – requires Rejected by OCD and requires further explanation by ICF
         clarification       before review and approval
         Delay approved      Postponed; request for delay approved by OCD; updates to be
                             determined
         Pending delivery    Awaiting delivery to OCD
         Report (annually)   Does not require approval; will be reported on an annual basis;
                             must be accepted by management
         Report (quarterly) Does not require approval; will be reported on a quarterly
                             basis; must be accepted by management
         Report (monthly)    Does not require approval; will be reported on a monthly basis;
                             will be accepted by management at discussion meeting
         Report (weekly)     Does not require approval; will be reported on a weekly basis;
                             must be accepted by management
         Delivered –         Deliverable delivered by ICF, requesting approval by OCD
         request approval
         Pending – request Deliverable awaiting delivery, requiring State action before
         State action        approval
         Pending – request Deliverable awaiting delivery, requiring federal action before
         federal action      approval
         Pending – request Ready for delivery, but a decision still needs to be made about
         clarification       the program
         Delay requested     Postponement requested by ICF; status cannot be reported;
                             changes are being made within the program
         Revised delivered   “Rejected requires clarification” has been responded to, and an
                             explanation has been given by ICF

                   By April 27, 2007, of the 80 deliverables,

                    •   Six were rejected, requiring clarification;
                    •   52 were approved;1
                    •   One was required quarterly;
                    •   10 were pending, requiring State action;
                    •   Five were delivered;
                    •   Five were delayed;2 and
                    •   One revision was delivered.


1
    Forty-two deliverables were approved without comments, and 10 were approved with comments.
2
    The State had approved the delay of two of these deliverables.


                                                        6
            The six deliverables that were rejected, requiring clarification, included the
            homeowner management information system, fully functional; small rental
            assistance program Web site, approved/online; update to appeals process;
            ombudsman procedures and policy; data dictionary for all programs; and controls
            assessment interim report.

Most Critical Deliverable

            Of those six deliverables that remained in rejected status, the management
            information system deliverable was the most critical, since it was the core
            processing mechanism needed for the progress of the homeowner assistance
            program.

            The homeowner management information system provides a record of source for
            data collection, data entry and verification, award calculation and option letter
            generation, reverification, compliance review and approval, closing, and filing
            (data/record maintenance). ICF planned to support the management information
            system by using a preexisting program called eGrantsPlus. The homeowner
            assistance application process through the management information system was
            as follows:

             •   Data collection - Homeowners would submit an application and supporting
                 documentation at one of the housing assistance centers;
             •   Data entry and verification - Once the application was submitted and entered
                 into eGrantsPlus, it would be verified using data and/or information (such as
                 flood plane, appraisal, Small Business Administration) from a third party;
             •   Award calculation and generation of option letters - After verification, a
                 compensation award would be calculated, and eGrantsPlus would generate
                 an option letter offering the homeowner three options;
             •   Reverification - When a response was received from the homeowner, the
                 application would be submitted back through eGrantsPlus, and a
                 reverification of the data would be performed according to the option
                 chosen;
             •   Compliance review and approval - After the data reverification process, the
                 information would be sent to the State for a compliance review and approval
                 of the compensation award amount;
             •   Closing - Once the State completed its review and approval, the closing
                 agent would schedule the closing, and the State would issue a check for the
                 approved compensation award amount; and
             •   Data/record maintenance - After the closing was completed, the closing
                 documents would be stored in an electronic file via eGrantsPlus.




                                             7
Management Information
System Not Provided in
Accordance with Contract

                    ICF did not provide the management information system in accordance with the
                    terms and conditions of its contract with the State. The State required the full
                    functionality of the management information system deliverable by August 29,
                    2006. However, when ICF submitted the deliverable, the State rejected it,
                    requiring clarification because the system was not complete. Thus, the system
                    was not completed in accordance with contractual requirements.

                    Phase 1 of the contract, the “start-up” of the homeowner assistance program, ran
                    from June 12 through October 11, 2006. October 12, 2006, was the date
                    scheduled for the beginning of phase 2 and the full-scale operation of the
                    homeowner assistance program. At the time phase 1 ended, ICF had not provided
                    a fully functional management information system. This deliverable remained in
                    rejected status because it was not fully functional. Consequently, the full-scale
                    operation of the homeowner assistance program was delayed because the
                    homeowner management information system was not fully functional.

                    The State provided additional time for ICF to complete the management
                    information system via contract amendment. In its third amendment to the
                    contract,3 the State amended the target date for the management information
                    system deliverable to November 15, 2006. However, when ICF submitted the
                    deliverable, the State again rejected it.


Benefit Calculations and Awards
Possibly Delayed

                    Because ICF did not provide the management information system in accordance
                    with the contract target date, the distribution of grants to homeowners was
                    possibly delayed. By October 16, 2006, 68,860 displaced hurricane victims had
                    applied for relief through the homeowner assistance program. The number of
                    applicants had increased to 78,382 by November 16, 2006. However, of the
                    78,382 applicants, only 5,770 (or 7 percent) benefits had been calculated and only
                    32 (less than 1 percent) homeowners had received awards. A fully functional or
                    at least a “more” functional management information system probably would
                    have allowed a greater number of benefits to be calculated and awards to be made
                    by November 16.

                    More than five months after the amended due date, ICF had not provided a
                    management information system deliverable in accordance with contractual terms
                    as established and amended. In the State’s April 26, 2007, review of the

3
    Effective October 12, 2006.


                                                     8
           deliverable, it rejected the management information system deliverable again
           because it was not fully functional. State officials said the management
           information system lacked electronic transfer capabilities that were required by
           the original contract. By April 26, 2007, the number of applicants had jumped to
           129,369, only 69,025 (or 53 percent) benefits had been calculated, and only
           11,392 (or 9 percent) homeowners had received awards. Again, a fully functional
           or at least a “more” functional management information system probably would
           have allowed a greater number of benefits to be calculated and awards to be
           made.

Lack of Monitoring
Documentation and Corrective
Action
           Despite ICF’s inadequate performance evidenced by its repeated missed delivery
           of a fully functional management information system, the State did not require
           specific written corrective action plans or penalize ICF when it did not provide
           deliverables (to include the management information system) in accordance with
           the terms and conditions of the contract.

           State officials said that there were a number of State-required policy changes to
           the program, and it would have been difficult to penalize ICF with all of the
           changes it required ICF to make to the program. The State claimed that its policy
           change demands contributed to ICF’s inability to deliver a fully functional
           management information system; however, the first documented policy change of
           record was September 29, 2006, a full month after the system was supposed to
           have been fully functional. Even though the State and ICF indicated that
           meetings and telephone conferences were regularly held, it could not provide
           written documentation of those meetings or written action plans that addressed
           ICF’s corrective actions to deliver a fully functional system.

Adequate Monitoring System
Lacking

           The State, as HUD’s grantee, was responsible for compliance with federal
           requirements. HUD also required the State to establish and implement monitoring
           processes to ensure that program requirements were met. Specifically, the State
           was required to take steps to avoid or mitigate occurrences of mismanagement,
           especially with respect to accountability. However, the State did not have an
           adequate monitoring system in place.

           During phase 1, the State only had one staff person to receive, review, and
           approve and/or disapprove deliverables. That staff person also had duties as the
           financial manager. In addition, the State did not have a fully operational staff
           until the end of 2006. Further, as reported by the Louisiana legislative auditor’s



                                            9
                office,4 the State did not have an adequate system in place to ensure that
                deliverables were reviewed and accepted or rejected in a timely manner. The
                Louisiana legislative auditor’s office5 further reported that the State did not have
                anyone to oversee the entire policy change process and relied wholly on ICF to
                effectively manage this process and track the status and approvals of policy
                changes.

                Therefore, the State did not have the needed staff or an adequate monitoring
                system in place to evaluate the adequacy of ICF’s performance. Consequently,
                the State could not provide ICF with sufficient guidance, make an informed
                determination of at what stage of development the deliverables should have been,
                define any activity to compensate for inadequate performance, or enforce any
                action necessary against ICF when it did not produce deliverables in accordance
                with the contract terms and conditions.

    Progress and Improvements


                The homeowner assistance program has progressed. As of August 2, 2007,
                112,722 benefits had been calculated, and awards had been made to 39,747
                homeowners. In addition, the State has made a number of improvements to its
                monitoring processes and procedures that include a performance measurement
                plan with objective and measurable performance parameters, along with
                corresponding incentives and penalties. The State has

                  •   Hired additional staff - More than 10 additional monitoring staff persons
                      were hired;
                  •   Drafted policies and procedures - Written monitoring policies and
                      procedures were drafted;
                  •   Designated staff to track deliverables - The designated staff tracks the
                      receipt of deliverables, ensures that deliverables are reviewed and approved
                      within 20 days of receipt, and ensures that ICF responds to rejected
                      deliverables within 20 days;
                  •   Developed a performance plan - The fourth amendment to the contract
                      requires ICF to follow a performance measurement plan on a quarterly basis,
                      including performance credits for noncompliance;6
                  •   Designated staff to monitor policy changes - Two administrators were
                      designated to oversee the review of policy changes, coordinate those
                      changes for each program area, and hold weekly meetings related to the
                      policy changes; and
                  •   Developed a process to track policy changes - The new process tracks policy
                      changes by program area and requires ICF to submit all policy changes to

4
  Louisiana Legislative Auditor (LLA) Road Home Program ICF Contract and Deliverables Audit Report, dated
May 30, 2007.
5
  LLA Road Home Program Review of Policy Change Approval Process Audit Report, dated June 13, 2007.
6
  The amendment was effective March 15, 2007, and the performance plan was effective April 13, 2007.


                                                     10
                       the State for its review and approval. The policy change process also
                       involves a weekly meeting of the State, the Louisiana Recovery Authority,
                       and ICF to discuss the proposed changes.7

    Conclusion


                 If the State had an adequate monitoring system in place at the inception of the
                 contract, it could have better assisted ICF in providing the deliverables in
                 accordance with the terms and conditions of the contract, and the homeowner
                 program might have been further along in its progress. Moreover, there probably
                 would have been a greater number of grants distributed to eligible recipients.

                 To ensure that the progress of the homeowner assistance program continues, the
                 State must ensure that it sets realistic goals for ICF, taking timely appropriate
                 action against ICF when performance problems arise, as stipulated by the
                 contract, and adequately implement its new monitoring policies and procedures.


    Recommendations


                 We recommend that HUD’s General Deputy Assistant Secretary for Community
                 Planning and Development

                   1A. Require the State to set realistic goals for ICF and take timely appropriate
                       action against ICF when performance problems arise, as stipulated by the
                       contract.

                   1B. Verify whether the State has adequately implemented its new monitoring
                       policies and procedures.




7
 The weekly meetings are also attended by representatives from the State House of Representatives and the State
Senate.


                                                       11
                        SCOPE AND METHODOLOGY

We performed our audit work between December 2006 and September 2007.

We conducted our fieldwork at the HUD Office of Inspector General (OIG) New Orleans,
Louisiana, field office and the State’s Office of Community Development Disaster Recovery
Unit and ICF in Baton Rouge, Louisiana.

To accomplish our objectives, we reviewed the HUD-approved action plan and amendments, the
contract executed between the State and ICF and later amendments, the Code of Federal
Regulations, waivers, and other applicable legal authorities relevant to the CDBG disaster
recovery grants. We also reviewed reports issued by the Louisiana legislative auditor’s office,
invoices and supporting documentation, and the status and requirements for the management
information system deliverable. Further, we interviewed State officials and staff and key
personnel of the Louisiana Recovery Authority and ICF.

Our audit period covered February 1 through November 30, 2006. We expanded this period as
necessary. We conducted the audit in accordance with generally accepted government auditing
standards.




                                              12
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit objective:

                  •   Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

                  •   Validity and reliability of data - Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

                  •   Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                  •   Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if internal controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                                13
Significant Weakness


            Based on our review, we believe the following item is a significant weakness:

        •    Because the State did not have an adequate monitoring system in place, the State’s
             Road Home housing manager, ICF, did not always provide contract deliverables in
             accordance with the terms and conditions of its contract (finding 1).




                                               14
                               APPENDIX

Appendix A

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation          Auditee Comments


            Auditee Comments




Comment 1

Comment 2




                                   15
Comment 3
Comment 4

Comment 1


Comment 5




            16
17
18
19
                             OIG Evaluation of Auditee Comments


Comment 1   OCD believes the conclusion that it did not have an adequate monitoring system
            in place at the inception of the contract is incorrect and inaccurate as a review and
            monitoring system did exist. We agree that a review and monitoring system
            existed, but we maintain that it was inadequate at the contract’s inception. As
            explained in the finding, during phase 1 of the contract, the State had only one
            person assigned to monitor deliverables, and that person also worked as a
            financial manager. Further, the Louisiana legislative auditor’s office previously
            reported that the State did not have an adequate system in place to ensure that
            deliverables were reviewed and accepted or rejected in a timely manner.

Comment 2   OCD further states that the finding does not offer any support for the assertion
            that ICF’s failure to develop a fully functional MIS may be the reason for a delay
            in distributing funds to homeowners. We disagree. Our report states that even
            though the system was to be fully functional on the extended contract date of
            November 15, 2006, on November 16, only 5,770 (or 7 percent) of 78,382
            applicants had their benefits calculated, and only 32 (less than 1 percent)
            homeowners had received awards. Further, the system calculator, eGrants Plus,
            used to calculate benefits was run “side by side” with a manual system. ICF staff
            informed us the full implementation of the system calculator occurred on October
            30, 2006, and the impact of the manual system can clearly be seen by the increase
            in verifications that occurred after its discontinuation as documented in the
            following table.

                                                               Applications   Verified &
                                         Applications               in          benefit
                                          received             verification   calculated      Closed
      October 10-15, 2006                      68,860                10,082             247            13
      October 17-23, 2006                      73,353                13,131             297            15
      October 24-30, 2006                      77,281                15,695             486            17
      October 31-November 6, 2006              78,695                19,356          1,721             20
      November 6-9, 2006                       75,724      *         21,444          3,119             25
      November 10-16, 2006                     78,382                26,197          5,770             32
      November 17-23, 2006                     80,587                30,258          8,981             44

      * - Drop is due to the removal of duplicates.

Comment 3   OCD indicates that the fourth amendment of the contract addresses the first
            recommendation. We disagree. The amendment provided by OCD deals with
            performance goals tied to processing applications and closings, which were
            needed. However, these goals do not address contract deliverables such as the
            management information system, which are still needed.

Comment 4   OCD indicated it provided documentation of meetings held with ICF and that it
            clearly documented that the deliverables were reviewed and acted upon. We



                                                      20
            agree that deliverables were reviewed and rejected, but OCD’s documentation of
            the reasons for rejection and actions needed was vague. For example, the
            December 13 2006, rejection of the management information system in the
            deliverables matrix stated, “Rejected – Requires Clarification,” and the April 24,
            2007, rejection merely stated, “System is still not fully functional.” In addition, in
            interviews, OCD stated it held weekly meetings with ICF, but it did not maintain
            meeting minutes. Further, OCD did provide a document listing its concerns,
            prepared for the October 31, 2006, weekly meeting, which stated, “OCD staff is
            concerned about when the MIS will become operational and want a full, frank,
            and honest assessment of the issues and problems encountered with its
            deployment.” However, we did not find where such an assessment was
            documented.

Comment 5   OCD questioned whether a CDBG regulation or statute was the basis of the
            finding as none was cited. The purpose of this audit was not to determine whether
            the contract complied with CDBG regulations, and, thus, they are not referenced
            in the report. Instead, this audit’s objective was to determine whether ICF
            provided contract deliverables in accordance with the terms and conditions of its
            contract with the State.




                                             21
